NO:

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

MAURICIO ALVAREZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I certify that on September 4, 2020, in accordance with the Court’s April 15,
2020 Order regarding the filing of documents, a single copy of the (1) Petition for a
Writ of Certiorari, (2) Motion for Leave to Proceed InForma Pauperis, (3)
Certificate of Service, and (4) Declaration Verifying Timely Filing, was deposited
with a third party commercial carrier for delivery to the Court within three
calendar days. A copy of the same was served via e-mail upon the Solicitor
General of the United States, at SupremeCtBriefs@usdoj.gov.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 4, 2020

By:

s/Bonnie Phillips-Williams
Bonnie Phillips- Williams
Assistant Federal Public Defender
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

